         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Evaluation Report

       Progress Report on EPA’s
       Nonroad Mobile Source
       Emissions Reduction Strategies
       Report No. 2006-P-00039

       September 27, 2006
Report Contributors:              John Bishop
                                  Gwen Butler
                                  Jennifer Dwyer
                                  Sarah Fabirkiewicz
                                  Bill Nelson
                                  Rick Beusse




Abbreviations

CO                       Carbon Monoxide
EPA                      U.S. Environmental Protection Agency
MARPOL                   International Convention for the Prevention of Pollution from Ships
NOx                      Nitrogen Oxides
OIG                      Office of Inspector General
OTAQ                     Office of Transportation and Air Quality
PM2.5                    Fine Particulate Matter
PM10                     Particulate Matter up to 10 micrometers in diameter
PM                       Particulate Matter
PPM                      Parts Per Million
SOX                      Sulfur Oxides
STAPPA/ALAPCO            State and Territorial Air Pollution Program Administrators/
                           Association of Local Air Pollution Control Officials
THC                      Total Hydrocarbons
VOC                      Volatile Organic Compound




Cover photos:   Various types of nonroad mobile sources of emissions (photos courtesy EPA).
                       U.S. Environmental Protection Agency                                              2006-P-00039

                                                                                                    September 27, 2006 

                       Office of Inspector General


                       At a Glance

                                                                            Catalyst for Improving the Environment


Why We Did This Review            Progress Report on EPA’s Nonroad Mobile
Emissions from nonroad            Source Emissions Reduction Strategies
mobile sources can present
significant health and             What We Found
environmental hazards. The
U.S. Environmental Protection     EPA has issued nonroad mobile source emissions control regulations that, when
Agency (EPA) projects that        fully implemented, should result in significant reductions in such emissions.
emissions from these sources      However, more emission reduction efforts are needed and some challenges
will decrease in some
categories but increase in        remain.
others. As such, we examined      Until the mid-1990s, emissions from nonroad mobile sources were largely
EPA’s efforts to reduce
nonroad mobile source             uncontrolled. In the 1990 Clean Air Act Amendments, Congress directed EPA to
emissions, opportunities for      study the contribution of nonroad sources to ozone and other air pollutants, and to
additional reductions, and        issue regulations if problems were found. EPA has since issued 14 regulations to
challenges to addressing          control pollutants from nonroad mobile sources, with a total of 20 standards for
nonroad emissions problems.       various nonroad categories. The most recent regulation, the 2004 Nonroad Diesel
                                  Engines rule, is based on a systems approach involving a combination of engine
Background                        modifications, reduced sulfur content in diesel fuel, and exhaust controls.
Nonroad mobile sources            There are approximately 5 million nonroad diesel engines in the United States
include marine vessels,           today, many of which are not subject to EPA emissions standards. These engines
locomotives, aircraft, farm and   have the potential to continue to produce high levels of pollution over the next
construction machinery, lawn      20 years or more. Agency projections show that substantial emissions reductions
and garden equipment,             have already been made for some source categories. However, the full benefits of
recreational vehicles, and        EPA’s regulations may not be realized until 2020-2030, when the standards are
outdoor power equipment.          expected to be fully implemented. Projected benefits assume engine turnover and
Nonroad mobile sources            replacement – activities that may be influenced by cost, lead time, and overall
produce particulate matter and    feasibility. EPA has encouraged emission reductions for existing engines through
ozone-forming nitrogen oxides     voluntary efforts and incentive programs. Although a mandatory retrofit program
and volatile organic              may achieve increased health protection sooner, such a requirement from the
compound emissions, as well       Federal level can only come through a change in the Clean Air Act.
as toxic air pollutants, which
contribute to a host of health    EPA faces significant challenges in addressing nonroad emissions, particularly
and environmental hazards.        among the marine, aircraft, and small gasoline engine categories. The role that
                                  other government entities and international communities play in regulating
For further information,
contact our Office of             emissions from these source categories hinders EPA’s progress in achieving
Congressional and Public          reductions. Technical challenges, including the availability of low sulfur fuel, the
Liaison at (202) 566-2391.        diversity of nonroad engines, and the wide range of applications, also must be
                                  addressed to meet air quality standards and emission reduction goals.
To view the full report,
click on the following link:
www.epa.gov/oig/reports/2006/     This report provides information on the progress of EPA’s efforts to address
20060927-2006-P-00039.pdf         nonroad emissions and makes no recommendations.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF 

                                                                                   INSPECTOR GENERAL



                                       September 27, 2006

MEMORANDUM

SUBJECT:               Progress Report on EPA’s Nonroad Mobile Source
                       Emissions Reduction Strategies
                       Report No. 2006-P-00039

TO:                    William L. Wehrum
                       Acting Assistant Administrator for Air and Radiation


This is a report on the subject evaluation conducted by the Office of Inspector General (OIG) of
the U.S. Environmental Protection Agency (EPA). The report examines current and projected
nonroad mobile source emissions and how Agency actions have affected those emissions to date,
and are projected to affect emissions in the future. This report represents the opinion of the OIG
and the findings in this report do not necessarily represent the final EPA position. Final
determinations on matters in the report will be made by EPA managers in accordance with
established procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $453,376.

Action Required

This report does not include recommendations. Therefore, you are not required to respond to 

this report. 


We appreciate the efforts of EPA managers and staff in working with us to develop this report. 

If you or your staff have any questions regarding this report, please contact me at (202) 566-0847 

of roderick.bill@epa.gov, or Wade Najjum at (202) 566-0827 or najjum.wade@epa.gov. 



                                              Sincerely,



                                              Bill A. Roderick
                                              Acting Inspector General
      Progress Report on EPA’s Nonroad Mobile Source Emissions Reduction Strategies



                                 Table of Contents 


Chapters
 1	    Introduction ...........................................................................................................      1


               Purpose ..........................................................................................................    1         

               Background ....................................................................................................       1         

               Scope and Methodology.................................................................................                4


 2	    Despite Regulatory Progress, More Work Needed 

       to Achieve Emissions Reductions.......................................................................                        5


               EPA Making Regulatory Progress for New Nonroad Engines........................                                        5

               EPA Undertakes Non-Regulatory Efforts to Reduce Emissions 

                  from Existing Diesel Engines.....................................................................                  6

               Data Not Yet Available to Measure Actual Emissions Reductions 

                  and Health Benefits ...................................................................................            8

               Further Controls Needed In Nonattainment Areas and 

                  for Certain Nonroad Categories ................................................................                   11 

               Conclusions....................................................................................................      12     

               Agency Response and OIG Evaluation ..........................................................                        13 


 3	    Challenges Remain to Achieve Emissions Reductions ....................................                                       14     


               Challenges Exist to Controlling Emissions from Certain Categories ..............                                     14 

               Nonroad Diesel Engines Rule Presents Technical Challenges......................                                      17 

               Conclusions ....................................................................................................     18         

               Agency Response and OIG Evaluation ..........................................................                        19 


 Status of Recommendations and Potential Monetary Benefits.................................                                         20     




Appendices
 A     Details on Scope and Methodology.....................................................................                        21     

 B     EPA’s Regulatory Schedule for Nonroad Engines.............................................                                   24     

 C     Agency Response to Draft Report.......................................................................                       27

 D     Agency Memo on Projected Near-Term Nonroad Emissions Reductions.......                                                       28     

 E     Distribution ............................................................................................................    30     

                                              Chapter 1
                                               Introduction
Purpose
                  Emissions from nonroad engines contribute significantly to air pollution and
                  health problems. The U.S. Environmental Protection Agency (EPA) projects that
                  emissions from some nonroad engines will continue to increase and contribute
                  large amounts of particulate matter and ozone precursor emissions,1 while
                  emissions from other source categories have begun to decrease. Concerned with
                  growth in emissions from these air pollution sources, EPA has issued 14
                  regulations to control pollutants from nonroad engines, particularly nitrogen
                  oxides (NOx), a precursor to the formation of ozone, and particulate matter (PM).
                  Because emissions from existing engines will be a concern for many years, we
                  reviewed the status of EPA’s efforts to reduce emissions from nonroad sources.
                  Chapter 2 presents EPA’s overall approach to reducing nonroad mobile source
                  emissions, the progress the Agency has made in taking actions to reduce
                  emissions, and additional opportunities for nonroad ozone and particulate matter
                  emissions reductions. Chapter 3 notes some of the major challenges EPA faces in
                  effectively addressing nonroad emissions.
Background
                  Mobile sources are divided into two categories: onroad and nonroad. The onroad
                  category includes cars and light trucks, motorcycles, and heavy-duty vehicles,
                  such as trucks and buses. Nonroad categories cover a variety of engine
                  configurations and applications and are divided into several sub-categories, as
                  listed in Table 1-1.
                   Table 1-1: Nonroad Engine Categories
                    Category                                                     Application
                    Land-Based Diesel         Backhoes, tractors, material handling equipment, airport service vehicles,
                    Engines                   generators, and pumps
                    Land-Based Spark-         Small Spark-Ignition Engines: Lawnmowers, string trimmers, leaf blowers, and
                    Ignition Engines          chain saws fueled with gasoline
                                              Large Spark-Ignition Engines: Forklifts, generators, compressors, and welders
                                              fueled with liquefied petroleum gas, gasoline, or natural gas
                                              Recreational Vehicles: Off-highway motorcycles, all-terrain vehicles, and
                                              snowmobiles fueled with gasoline
                    Marine Engines and        Marine Spark-Ignition Engines: Outboard engines, personal water craft, and
                    Vessels                   gasoline-fueled sterndrive and inboard engines
                                              Marine Diesel Engines: Recreational yachts, fishing boats, tug and towboats,
                                              dredgers, and coastal and ocean-going vessels
                    Locomotives               Diesel-powered engines used in freight and passenger rail, line-haul, local, and
                                              switch-yard service
                    Aircraft                  All types of aircraft (ground support equipment not included)
                  Source: EPA, Mobile Source Emissions: Past, Present and Future

1
 Ozone is formed by a complex atmospheric chemical reaction of oxides of nitrogen (NOX) and volatile organic compounds
(VOCs) in the presence of sunlight and heat. NOX and VOCs are known as precursor emissions for ozone.


                                                             1
                As illustrated in Table 1-1, some nonroad sources operate with the use of diesel
                engines and others operate with gasoline, liquefied petroleum gas, or natural gas
                (also known as spark ignition engines). Unlike gasoline engines, diesel engines
                have no spark plug, but take in air and compress it; the fuel is then injected
                directly into a combustion chamber and the heat of the compressed air ignites the
                fuel in the engine. While both engines produce air pollutants, diesel engines
                produce substantially more NOx and particulates, and spark-ignition engines
                generally produce more volatile organic compounds (VOCs).

                Until the mid-1990s, emissions from nonroad mobile sources were largely
                unregulated. In the 1990 Clean Air Act Amendments, Congress directed EPA to
                study the contribution of nonroad sources to ozone and other air pollutants, and to
                issue regulations for nonroad sources found to contribute to air pollution. In
                1991, EPA concluded that nonroad engines contributed significantly to air quality
                problems related to ozone-forming NOx and VOCs, PM, and other pollutants.
                Subsequently, in 2001, EPA found that nonroad and onroad engines also
                contributed to air pollution from 21 air toxics. EPA defines air toxics as “those
                pollutants that are known or suspected to cause cancer or other serious health
                effects or adverse environmental effects.” From 1994 to 2004, EPA issued 14
                regulations to control pollutants from nonroad engines.

                Nonroad Emissions Pose Significant Air Quality and Health Concerns

                Nonroad engines emit significant amounts of diesel exhaust, which has been
                designated a probable human carcinogen. EPA’s most recent data2 indicate that
                nonroad engines produce about 66 percent of the nation’s fine particulate matter
                (PM2.5) from all mobile sources. These nonroad engine emissions contribute
                significantly to air pollution affecting about 88 million Americans living in areas
                that violate PM2.5 air quality standards. Exposure to fine particulate matter has
                been linked to premature death rates and the incidence of cardiovascular and
                respiratory illnesses. Particulate matter is a mixture of solid particles and liquid
                droplets found in air, and comes in a wide range of sizes. Particles less than
                2.5 micrometers in diameter are referred to as fine particles, or PM2.5, and because
                of their small size pose the greatest health risk compared to other particulates.
                These fine particles – about 1/30th of the thickness of a human hair – can lodge
                deeply into the lungs and may even get into the blood stream. Additionally, fine
                particles are the major source of haze. Unless otherwise specified, this report
                focuses on PM2.5 when addressing particulate matter.

                NOx and VOCs combine in the presence of heat and sunlight to form one of the
                most pervasive air pollution problems for major urban areas – ground level ozone.
                Ozone pollution is linked to illnesses such as asthma and heart disease.
                Environmental effects of ozone include crop damage, damage to trees, decreased
                crop yields that cost the agriculture industry billions of dollars, acid deposition,
2
 EPA 2005 Technology Transfer Network Clearinghouse for Inventories & Emissions Factors: National Emissions
Inventory Air Pollutant Emissions Trends Data.


                                                     2

                and nutrient overloads in coastal waters. Nonroad engines produce about
                36 percent of NOx and 37 percent of VOC emissions,3 two ozone precursors
                contributing significantly to air pollution affecting about 159 million Americans
                living in areas that exceed EPA’s 8-hour ozone standard.

                Overall Nonroad Mobile Source Emissions Decreasing,
                But Some Categories Continue to Increase

                Prior to EPA’s 1994 regulations, emissions from nonroad mobile sources (PM,
                and ozone-forming NOx and VOCs) were steadily increasing. Since the nonroad
                regulations came into effect, PM2.5 and VOC emissions have generally declined,
                while NOx emissions have generally begun to level off. However, EPA projects
                that emissions from nonroad sources such as aircraft, marine, and locomotive
                diesel engines will continue to increase. EPA estimates that by 2030, without
                new controls, locomotive and marine diesel engines, as a subset of mobile source
                emissions, will contribute about 27 percent of NOx and 45 percent of fine diesel
                PM. While aircraft emissions contribute 1 percent of these NOx emissions
                nationwide, some cities with greater airport traffic see larger NOx emissions and
                these emissions levels are expected to grow.

                Figures 1-1 through 1-3 illustrate the NOx, PM2.5, and VOC emissions for nonroad
                sources from 1990 to 2002. As shown, emissions for all three steadily increased
                prior to EPA’s nonroad regulatory actions, which began to be implemented in
                1996.


                 Figure 1-1: Change in Nonroad Mobile                               Figure 1-2: Change in Nonroad Mobile
                 Source NOx Emissions From 1990 to 2002                             Source PM2.5 Emissions From 1990 to 2002

                          4,400                                                             320
                                                                                            315
                          4,200                                                             310
                                                                                            305
                          4,000                                                             300
                   Tons




                                                                                     Tons




                                                                                            295
                          3,800                                                             290
                                                                                            285
                          3,600                                                             280
                                                                                            275
                          3,400                                                             270
                              90

                                      92

                                              94

                                                      96

                                                              98

                                                                      00

                                                                              02




                                                                                             90


                                                                                                   92

                                                                                                         94


                                                                                                               96


                                                                                                                      98

                                                                                                                            00


                                                                                                                                  02
                                   19
                           19




                                           19

                                                   19

                                                           19

                                                                   20

                                                                           20




                                                                                            19


                                                                                                  19

                                                                                                        19


                                                                                                              19


                                                                                                                     19

                                                                                                                           20


                                                                                                                                 20




                                                      Year                                                         Year




3
 EPA 2005 Technology Transfer Network Clearinghouse for Inventories & Emissions Factors: National Emissions
Inventory Air Pollutant Emissions Trends Data.


                                                                               3

                              Figure 1-3: Change in Nonroad Mobile Source
                              VOC Emissions From 1990 to 2002

                                      3,000
                                      2,900
                                      2,800




                               Tons
                                      2,700
                                      2,600
                                      2,500
                                      2,400




                                          90




                                          02
                                          92

                                          94

                                          96

                                          98

                                          00
                                       20
                                       19

                                       19

                                       19

                                       19

                                       19

                                       20
                                                        Year


                               Source for Figures 1-1 through 1-3:
                               EPA, 2005 National Emission Inventory Air Pollutant
                               Emissions Trends Data


Scope and Methodology
         To assess EPA’s efforts to reduce nonroad mobile source emissions, we reviewed
         EPA reports, regulations, and guidance, and EPA and external stakeholder
         analyses and studies of emissions from nonroad diesel engines. We also
         performed limited analyses from EPA’s National Emissions Inventory Air
         Pollutant Emissions Trends Data, and interviewed officials and representatives
         from the EPA Office of Air and Radiation’s Office of Transportation and Air
         Quality (OTAQ), Ann Arbor, Michigan. In addition, we conducted interviews
         with external stakeholder organizations, including State and local organizations,
         and environmental and industry groups. We also reviewed pertinent sections of
         the Clean Air Act, as amended. Our work was conducted from April 2005
         through February 2006. We conducted our evaluation in accordance with
         Government Auditing Standards, issued by the Comptroller General of the United
         States. Additional details on our scope and methodology are in Appendix A.




                                              4

                               Chapter 2
   Despite Regulatory Progress, More Work Needed
          to Achieve Emissions Reductions

         Since 1994, EPA has issued 14 regulations to control emissions from nonroad
         mobile sources. A number of these regulations include multiple tiers of standards,
         with a total of 20 standards for the various nonroad categories. Twelve of the
         standards have already taken effect, seven are in the process of being phased-in,
         and one will not begin to phase-in until 2008. There are approximately 5 million
         nonroad diesel engines in the United States today, many of which are not subject
         to any EPA diesel engine emissions standards. These engines have the potential
         to operate for the next 20 to 30 years and continue to produce high levels of
         pollution. EPA officials are aware of the need to reduce emissions from these
         existing engines, and have encouraged reductions through voluntary initiatives,
         grant awards, and technical guidance. EPA and others have identified
         locomotive, marine, and aircraft engines as increasingly significant sources of
         emissions that will require additional controls. According to EPA, when the full
         inventory of older nonroad engines has been replaced, the nonroad diesel program
         will annually prevent up to 12,000 premature deaths, 1 million lost work days,
         15,000 heart attacks, and 6,000 children's asthma-related emergency room visits.

EPA Making Regulatory Progress for New Nonroad Engines

         The first of the 14 regulations that EPA has issued since 1994 to control nonroad
         mobile emission sources went into effect in 1996, and the last is to go into effect
         in 2008. EPA has generally taken a phased-in approach when adopting these
         regulations and has issued multiple tiers for certain engine categories, with a total
         of 20 standards promulgated as of April 2006. To illustrate, EPA issued four tiers
         of land-based diesel engine emissions standards, with each tier requiring more
         stringent emissions reductions than the previous one. For example, Tier 4 of the
         land-based standards first goes into effect in 2008 and is expected to take until
         2015 to achieve its 90-percent reduction goal. Additional information on EPA’s
         nonroad emissions regulatory schedule is in Appendix B.

         According to OTAQ officials, at least one set of regulations has been issued for
         each nonroad category, with the exception of stern-based marine engines.
         OTAQ is working on the following nonroad regulations/activities:

            •   Implementing land-based diesel engine emission standards (Tiers 3 and 4).
            •   Future gasoline control standards.
            •   Future standards for locomotive and marine diesel engines.
            •   Mobile source air toxics rulemaking.


                                           5

            •	 Sulfur Oxides (SOX) Emission Control Area under the 1997 Amendments
               to the International Convention for the Prevention of Pollution from Ships
               (MARPOL-Annex VI).
            •	 Adopting 2004 NOx standards approved for aircraft by the International
               Civil Aviation Organization.
            •	 Pursuing international standards for ocean-going marine vessels.

         In 2004, EPA developed the Control of Emissions of Air Pollution From Nonroad
         Diesel Engine and Fuel (Tier 4 standards) – commonly referred to as the Nonroad
         Diesel Engines rule – to reduce emissions from nonroad diesel engines by
         combining engine and fuel controls as a system to increase emissions reductions.
         This concept of integrating engine and fuel controls as a system was
         unprecedented in nonroad regulations.

         The 2004 standards apply to land-based diesel engines, which are typically used
         in construction, agricultural, and industrial equipment. The standards are expected
         to reduce NOx emissions by 90 percent and PM2.5 emissions by 95 percent. EPA
         estimates that by 2030, these reductions will result in a variety of public health
         benefits, including the prevention of 12,000 premature deaths, 1 million lost work
         days, 15,000 heart attacks, and almost 6,000 emergency room visits by children
         due to asthma attacks. The sulfur fuel component of this rule applies to land
         based diesel engines, commercial and recreational marine diesel engines, and
         locomotives, and is expected to reduce sulfur levels by 99 percent. EPA’s
         Nonroad Diesel Engines rule calls for a nationwide transition from diesel fuel
         containing about 3,000 parts per million (ppm) of sulfur today to 500 ppm of
         sulfur in 2007, and eventually to 15 ppm of sulfur by 2010. Low sulfur levels in
         diesel fuel will allow engine manufacturers to use advanced emission control
         technologies that allow emissions reductions for PM2.5 and NOx, and, more
         importantly, address health and environmental risks associated with these
         pollutants.

EPA Undertakes Non-Regulatory Efforts to Reduce Emissions
from Existing Diesel Engines
         There are approximately 5 million nonroad diesel engines in use in the United
         States today. Many of these are not subject to any EPA diesel engine emissions
         standards. Because diesel engines are durable and likely to continue operating
         over the next 20 years or more, high levels of pollution from these engines will
         persist throughout the life of these engines.

         An OTAQ official highlighted the need to reduce emissions from these engines,
         and noted that EPA had established a goal of reducing emissions from the existing
         11 million onroad and nonroad diesel engines by 2014. Reducing emissions from




                                          6

                 these diesel engines is one of three main priorities that OTAQ plans to address.4
                 According to the EPA Region 9 Administrator, reducing emissions from older
                 diesel engines is “one of the most important air quality challenges facing the
                 country.” To meet the goal of reducing emissions from existing engines, a
                 subcommittee of the Clean Air Act Advisory Committee – the Mobile Source
                 Technical Review Subcommittee Clean Diesel and Retrofit Working Group – was
                 established to:

                      •	 Address how to assess fleets to determine diesel emissions reduction
                         strategies suitably,
                      •	 Evaluate in-use performance of retrofit technology,
                      •	 Educate the public on emissions reduction strategies, and
                      •	 Address how to establish national incentives for cleaner diesel strategies.

                 Voluntary Diesel Retrofit Program and 

                 National Clean Diesel Campaign 


                 To address the challenge of reducing emissions from existing engines, EPA
                 established the Voluntary Diesel Retrofit Program and the National Clean Diesel
                 Campaign. Established in 2000, the Voluntary Diesel Retrofit Program verifies
                 new retrofit technologies, awards grants, and provides technical guidance. In
                 2004, EPA established the National Clean Diesel Campaign, which promotes
                 retrofit incentives and technical assistance to help reduce pollution from these
                 engines and equipment. The campaign also established voluntary programs in the
                 marine and construction nonroad sectors – the Clean Ports and Clean
                 Construction USA initiatives – to encourage the use of emissions control
                 technology, replacement of older equipment, and use of cleaner fuels. Today, the
                 National Clean Diesel Campaign is the overall umbrella for EPA’s diesel retrofit
                 activities.

                 The National Clean Diesel Campaign promotes regional collaborations and
                 partnerships, such as the West Coast Diesel Emissions Reductions Collaborative.
                 This collaborative is a joint effort with EPA and other Federal, State, local, and
                 non-profit and private sector partners to reduce air pollution emissions from diesel
                 engines along the West Coast. The collaborative, for example, supported the
                 Oregon Construction Equipment Emissions Reduction Project to reduce diesel
                 emissions from construction equipment in the City of Portland through diesel
                 engine retrofits, cleaner fuels, and engine idle reduction policies. Although a
                 mandatory retrofit program may achieve increased health protection sooner, such
                 a requirement from the Federal level can only come through a change in the Clean
                 Air Act. Concerned with nonroad emissions, some States have implemented their
                 own mandatory programs.


4
  EPA outlined three priorities for OTAQ: (1) to successfully implement the diesel programs; (2) focus on
locomotives, marine diesel engines, mobile source air toxics rule, and programs for small engines; and (3) focus on
addressing existing diesel engines.


                                                         7

          EPA has worked to encourage emissions reductions through voluntary initiatives,
          grants, and technical guidance. Although some funding is currently available to
          reduce emissions from existing engines, the Acting Director, Compliance and
          Innovative Strategies Division, OTAQ, said additional resources are needed.
          OTAQ has also focused on guidance and technical support to encourage
          emissions reductions.

Data Not Yet Available to Measure Actual Emissions Reductions
and Health Benefits

          The Clean Air Act provides EPA with the authority to establish emissions
          standards only for new engines; therefore, nonroad engine emissions standards
          phase in over time as older engines undergo turnover and replacement. Twelve of
          the standards have already taken effect, seven are in the process of being phased-
          in, and one will not begin to phase-in until 2008. Table 2-1 shows the emissions
          reductions estimates for some nonroad standards; for a complete list, see
          Appendix B.

          Table 2-1: Emissions Reductions Estimates for Existing nonroad regulations
                                             Implementation
                     Regulation                   Date                 Estimated Results
           Tier 1 standards for land-             1996-2000      By 2025, 30% reduction in
           based diesel engines                                  NOX emissions
           Phase 1 standards for small            1997           By 2020, 32% reduction in
           spark-ignition engines                                hydrocarbon emissions
           Gasoline outboard & personal           1998-2006      By 2025, 75% lower
           watercraft Phase 1                                    hydrocarbon emissions on
                                                                 average
           Tier 2 standards for land              2001-2006      By 2020 50% NOX and
           based diesel engines                                  40% PM reduction from Tier 1
                                                                 levels
           Tier 2 standards for Category          2004-2007      By 2030, 24% reduction in
           1 and 2 marine diesel engines                         NOX, 12% reduction in PM
           Tier 4 standards for land              2008-2015      By 2030, 95% reduction PM
           based diesel engines                                  and 90% reduction in NOX,
                                                                 and 99% reduction SOx levels
          Source: EPA, Federal Register Environmental Documents and EPA OTAQ

          The full benefits of EPA’s regulations may not be realized until 2020-2030, when
          the standards are expected to be fully implemented. These benefits assume engine
          turnover and replacement, behavior which may be influenced by cost and lead
          time, and overall feasibility. For example, EPA estimates that the full emissions
          reductions from the Phase 1 standards (small spark-ignition engines) will be
          achieved by 2020, at which time the existing fleet of engines is expected to have
          turned over. An OTAQ official noted that “even during the phase-in of new
          standards, emission reductions are being seen, since the engines complying with
          the newer standards are being introduced into commerce.” OTAQ provided the
          OIG with projected near-term emission reductions, presented in Table 2-2.



                                             8

                  Table 2-2: Projected Near-Term Emissions Reductions Resulting from All
                                                         a
                  EPA Nonroad Standards, Except Aircraft
                                                   2006                             2010

                                         Tons             Percent         Tons             Percent
                   Pollutant           Reduced            Reduced       Reduced            Reduced
                       THC             1,590,089            33%         2,449,807            47%
                        NOx             913,055            21%          1,558,322            33%
                        PM10            73,143             21%           117,147             33%
                         CO            3,145,113           10%          4,718,399            14%
                  THC: Total hydrocarbons
                  PM10: Particulate matter up to 10 micrometers in diameter
                  CO: Carbon monoxide
                  a
                    If the aircraft category was included in Table 2-2, slightly greater emission reductions
                  would result, in particular for NOx.

                  Source: EPA OTAQ


                  The 2004 Nonroad Diesel Engines rule is viewed by environmental, industry, and
                  State and local stakeholders as a successful EPA rulemaking. Similar to other
                  nonroad regulations, emissions reductions and the resultant health benefits
                  continue to phase-in until 2030. EPA has projected that PM2.5 emissions will be
                  reduced by 95 percent and NOx emissions by 90 percent for the land-based diesel
                  engine category of nonroad engines by 2030.

                  According to OTAQ’s 2004 Final Regulatory Analysis, the Nonroad Diesel
                  Engines rule5 will ultimately yield the public health benefits shown in Table 2-3
                  by 2030. The timeframe for EPA's analysis reflects engine turnover (existing
                  engines being replaced by new, cleaner ones) beginning in 2007 and extending
                  through 2030.

                  Table 2-3: Projected Public Health Benefits When the Fleet of Older Nonroad
                  Engines Has Fully Turned Over (by 2030)

                    Full Implementation of Rule Will Annually Prevent                 Projected Amount

                    Premature deaths                                                        12,000
                    Hospitalizations                                                        8,900
                    Heart attacks                                                           15,000
                    Children’s asthma-related emergency room visits                         6,000
                    Cases of respiratory problems in children                              280,000
                    Work days lost                                                         1,000,000
                    Cases of asthma symptoms in children                                   200,000

                  Source: EPA, Clean Air Nonroad Diesel Rule – Facts and Figures




5
 EPA (2004a), Final Regulatory Analysis: Control of Emissions from Nonroad Diesel Engines, EPA420-R-04-007 (May 2004),
Table 9-16.


                                                            9
As shown in Figure 2-1, both the monetized health benefits (shown by the pink
line) and the tons of PM2.5 emissions reduced (shown by the blue line) are
projected to appear gradually. EPA projects that health benefits will begin to
appear in 2007, when the first phase of the low-sulfur diesel fuel requirements
takes effect for nonroad engines.
Figure 2-1: Projected PM-2.5 Emissions Reductions and Public Health Benefits Resulting
from the 2004 Nonroad Diesel Rule

                      Projected tons PM2.5 Reduction and Monetized

                                      Health Benefits

                 140,000                                       128,350    100%          100
                 120,000                             110,043
                                                                                        80
  Tons Reduced




                 100,000                 85,808
                                                                60.82%                  60




                                                                                              Percent
                  80,000
                                53,072
                  60,000                                                                40
                  40,000   21,692                     31.7%
                                                                                        20
                  20,000                 13.4%
                      0        3.61%                                                    0
                            2010    2015        2020        2025     2030
                                                       Years

                              tons reduced          % total monetized health benefits
 Source: EPA, Final Regulatory Analysis: Control of Emissions from Nonroad Diesel Engines

For the nonroad diesel engine standards, implementation will occur in stages:
reductions in sulfur content of nonroad diesel fuel will occur first, and then
adoption of controls on most new nonroad engines. Because full turnover of the
fleet of nonroad diesel engines will not occur for many years, the emission
reduction benefits of the standards will not be fully realized until many years after
the reduction in fuel sulfur content. According to EPA, the overall quantifiable
benefits will total over $83 billion annually by 2030, with a 30-year net present
value of $805 billion.

EPA’s “NONROAD” emission inventory model has limitations that could affect
the validity of emission reduction projections. The NONROAD model is used to
estimate emissions from nonroad equipment. This model calculates past, present,
and future emissions inventories for all nonroad categories, but does not currently
have the capability to estimate emissions from aircraft, commercial marine
vessels, and locomotive engines. Also, the emissions data are based on laboratory
testing instead of actual field testing of in-use applications. In the future, the
aircraft, locomotive, and commercial marine source categories will be included in
EPA’s new emissions model – Motor Vehicle Emission Simulator (MOVES) –
which is currently under development.



                                             10 

                  According to an OTAQ official, because the regulations are phased in and
                  projections are long term, it is difficult to capture emissions reductions data in the
                  short term. Unlike highway vehicles, nonroad engines are not registered, and the
                  difficulty in measuring the activity of nonroad vehicles creates a challenge for the
                  Agency and the States to collect sufficient reliable data for the NONROAD
                  model.

Further Controls Needed In Nonattainment Areas and for
Certain Nonroad Categories

                  EPA’s deadlines to meet ozone and PM2.5 standards by 2010 are critical to
                  meeting human health goals in nonattainment areas. Also, OTAQ officials and
                  outside stakeholders identified locomotive, marine, and aircraft engines as sources
                  of significantly increasing emissions that will require additional emissions
                  controls.

                  Nonattainment Areas

                  Emissions from nonroad diesel engines are significant contributors to the
                  pollution in areas that do not meet National Ambient Air Quality Standards
                  (nonattainment areas). EPA's Green Book of nonattainment areas for criteria
                  pollutants identifies areas of the country where air pollution levels exceed the
                  national ambient air quality standard and are designated as nonattainment. Recent
                  data from EPA’s Green Book show that about 159 million Americans live in 126
                  ozone nonattainment areas. Additionally, about 88 million Americans live in 208
                  counties not meeting EPA’s PM2.5 standards, and EPA’s deadlines to meet PM2.5
                  standards by 20106 are critical in these areas.

                  Nonattainment areas are required to reduce ozone and PM2.5 emissions as part of
                  State Implementation Plans. The 2004 Nonroad Diesel Engines rule is expected
                  to begin providing emissions results by 2008, but will not be fully implemented
                  until 2015. Therefore, these States will need to look elsewhere for additional
                  ozone-forming NOx and PM2.5 reductions.

                  Category 1 and 2 Marine Diesel and Locomotive Engine Emissions

                  EPA estimates that by 2030, without new controls, locomotive and marine
                  (Category 1 and 2) diesel engines will contribute about 27 percent of mobile
                  source NOx and 45 percent of mobile source diesel PM emissions. Currently,
                  marine diesel engines contribute about 8 percent of mobile source NOx and
                  9 percent of mobile source diesel PM emissions, although their relative
                  contribution is greater around commercial ports.

6
 With appropriate justification, States are allowed an extension of up to 5 years, or until February 2015, to reach full
attainment for PM2.5.



                                                          11 

         A representative from OTAQ’s marine and locomotive group said that because
         the first standards for marine diesel engines did not take effect until January 2004,
         large projected emissions reductions have not yet been achieved. Additionally,
         this representative said that emissions certification data from engine
         manufacturers indicate they are producing and distributing cleaner engines to
         meet the new standards. However, according to EPA documents, the Tier 1
         marine standards are equivalent to the international emissions standards, which
         are considered less stringent regulations by key OTAQ officials.

         EPA estimates that locomotives currently contribute about 7 percent of NOx and
         5 percent of PM mobile source emissions. Typically, a locomotive engine will
         remain in service 40 years or more before it is scrapped. During that time an
         engine may be remanufactured every 5 to 7 years to restore it to an “as new”
         condition and may travel a million miles between remanufactures. According to
         EPA, locomotive engines have relatively modest emissions standards, and
         continue to emit large amounts of NOx and PM. Emissions requirements issued in
         1997 were considered adequate at the time, but EPA is now considering more
         protective regulations. EPA included sulfur fuel requirements for locomotives in
         the 2004 Nonroad Diesel Engines rule to reduce emissions from these engines and
         improve the ability to use advanced aftertreatment systems.

         OTAQ reported that they are talking with locomotive and marine engine
         manufacturers to develop a strategy to implement more stringent regulations for
         both locomotive and marine engines based on advanced aftertreatment
         technologies. OTAQ expects to issue a notice of proposed rulemaking by
         December 2006 and a final rule in 2007.

         Aircraft Engine Emissions

         Aircraft engine emissions are increasing at a time when other mobile source
         categories are being reduced. Aircraft emissions contribute 0.7 percent of NOx
         emissions from mobile sources nationwide, but some cities with greater airport
         traffic see a larger contribution of NOx emissions from these engines, and these
         emissions are expected to grow. For example, EPA estimates that NOx emissions
         from commercial aircraft in the Atlanta, Georgia area are expected to double by
         2010 and contribute as much as 10 percent of mobile source NOx emissions in
         that area. Nationally, the Federal Aviation Administration projects that
         commercial air travel is expected to increase 45 percent from 2002 to 2020.

Conclusions

         EPA has issued several nonroad mobile source emissions control regulations that
         will require significant reductions in nonroad source emissions. The full benefits
         of EPA’s regulations may not be realized until 2020-2030 when the standards are
         expected to be fully implemented. However, these regulations have already
         achieved reductions in emissions from some emission source categories. These


                                          12 

         benefits assume engine turnover and replacement – activities which may be
         influenced by cost, lead time, and overall feasibility.

         According to EPA there are approximately 5 million existing nonroad diesel
         engines in the United States, many of which are not subject to EPA diesel engine
         emission standards. EPA has acknowledged the need to reduce emissions from
         existing engines and has introduced voluntary programs and grants to encourage
         emissions reductions from these engines. Although a mandatory retrofit program
         may achieve increased health protection sooner, such a requirement from the
         Federal level can only come through a change in the Clean Air Act.

         This report provides information on the progress of EPA’s efforts to address
         nonroad emissions and makes no recommendations. We plan to perform
         additional reviews of mobile source issues in the future, including an in-depth
         review related to existing engines.

Agency Response and OIG Evaluation
         In addition to the memorandum sent to the OIG with Agency comments to the
         draft report, the Agency also submitted more specific comments on the draft
         report. These comments were documented in the margins of the draft. A
         summary of the key additional comments follows:

            (1) The draft report should include information on the substantial reductions
                that have already occurred as a result of EPA’s nonroad emissions
                standards. To demonstrate projected emissions reductions in the near-
                term, OTAQ prepared data for the OIG using the NONROAD model to
                show projected emissions for the years 2006 and 2010.

            (2) Tier 4 standards incorporated a great deal of flexibility to allow
                manufacturers the lead time necessary to develop and apply aftertreatment
                device technology.

         We agree with the Agency’s key comments, and revisions to the draft report were
         made accordingly. The Agency also provided technical comments to the draft
         report; we made changes based on these comments as appropriate. In both its
         memorandum as well as the comments it provided within the margins of the draft,
         the Agency asked that the OIG include information regarding near-term projected
         emissions reductions to demonstrate the progress that has already been made due
         to EPA’s nonroad emissions standards. To address this comment, the OIG
         incorporated data on projected emissions reductions for 2006 and 2010 in
         “Table 2-2: Projected Near-Term Emissions Reductions Resulting from All EPA
         Nonroad Standards, Except Aircraft” of the report.

         The Agency’s comments are in Appendix C. Appendix D contains a separate
         memo with information that EPA provided to supplement Table 2-2.


                                          13 

                                Chapter 3
Challenges Remain to Achieve Emissions Reductions

          Although EPA has made substantial progress in developing regulations to reduce
          nonroad mobile source emissions, challenges remain in regulating the aircraft,
          marine, and small gasoline engine categories. These challenges may hinder
          EPA’s progress in achieving emissions reductions from nonroad engines and in
          protecting public health. In particular:

             •	 EPA faces significant challenges in issuing regulations for aircraft and
                large ocean-going marine vessels because other government entities and
                international organizations play significant roles in regulating those
                categories of nonroad sources.

             •	 Small gasoline engines are the largest contributor of nonroad gasoline
                NOx emissions, and while EPA is required to issue new regulations for
                small gasoline engines, technical challenges exist related to lawn and
                garden equipment that must be addressed first.

             •	 Technical challenges also exist related to the diversity of nonroad engines
                and the wide range of applications of those engines.

Challenges Exist to Controlling Emissions from Certain Categories

          Large Ocean-going (Category 3) Marine Diesel Engine Emission
          Challenges

          The commercial marine engine sector is particularly challenging because marine
          diesel engines have a long service life (as long as 20 to 30 years), and there are
          limited Federal incentives for retrofitting these engines prior to the end of their
          useful life. Also, most large ocean-going vessels (category 3 diesel engines) are
          subject to international standards rather than U.S. standards. EPA estimates that
          commercial marine diesel vessels annually emit about 1,000,000 tons of ozone-
          forming NOx, 40,000 tons of PM2.5, and 160,000 tons of sulfur dioxide.

          EPA has set engine emissions (Tier 1) standards for large ocean-going marine
          (Category 3) vessels flagged in the United States. The International Maritime
          Organization sets the engine emissions standards for foreign-flagged ocean-going
          vessels. As noted in Chapter 2, Tier 1 marine standards are equivalent to the
          international emissions standards and considered less stringent. However, OTAQ
          staff said that the standards are based on the technology available at the time the
          standards were adopted, and there have been technological advancements within


                                           14 

the nonroad diesel sector since then that OTAQ hopes to apply to the marine
sector.

EPA must continue to work with the international community to regulate
emissions from these engines. The International Maritime Organization was
established under the United Nations to address safety, navigation, and pollution
prevention for ships involved in international trade. According to EPA
documents, foreign-flagged vessels account for about 97 percent of calls on
U.S. ports, and it is likely that the contribution of U.S. vessels with Category 3
engines to local air pollution is small compared to foreign vessels. Because most
of these ships are subject to International Maritime Organization standards rather
than U.S. standards, EPA faces significant legal issues regarding its authority to
regulate these vessels under the Clean Air Act.

From an environmental perspective, International Maritime Organization
standards that are particularly useful are the 1997 Amendments to the
International Convention for the Prevention of Pollution from Ships (MARPOL -
Annex VI), which address air emissions such as ozone-depleting substances,
onboard incinerators, emissions from tanker operations, and NOx and SOX
emissions from ship engines. MARPOL-Annex VI went into effect in May 2005,
and 28 countries have signed it. In April 2006, the United States Senate gave its
advice and consent to the ratification of MARPOL-Annex VI, but has not yet
ratified the treaty. According to OTAQ staff, some of the potential benefits of the
United States joining the MARPOL-Annex VI agreement are related to the
designation of SOX Emission Control Areas, since it would help prevent, reduce,
and control air pollution from SOX emissions. Additionally, MARPOL-Annex VI
would give the United States authority to inspect foreign ships entering U.S. ports
for compliance with MARPOL-Annex VI standards.

OTAQ staff also noted they are working with the international community and
other stakeholders to develop a second tier of more stringent marine diesel
standards. In July of 2005, the International Maritime Organization formally
agreed to begin deliberations regarding a potential second tier of emission
standards for ocean-going marine vessels. OTAQ and EPA’s Office of
International Affairs staff are actively working with the International Maritime
Organization to establish aggressive future standards for ocean-going vessels,
according to OTAQ representatives.

Aircraft Engine Emissions Challenges

Similar to marine diesel and locomotive engines, the long service life of aircraft
engines is a substantial challenge to reducing these emissions, and there are no
Federal incentives for retrofitting these engines prior to the end of their useful life.
As mentioned in Chapter 2, emissions from commercial aircraft are a growing
segment of mobile source emissions. Some aircraft engines have a life span of
about 30 years and account for about 45 percent of total emissions among all



                                  15 

                  airport operations. Further, shared authority for regulating aircraft emissions,
                  both internationally and within the Federal Government, add additional
                  challenges.

                  EPA and the Federal Aviation Administration have joint authority for regulating
                  aircraft emissions. An OTAQ official told us that sharing joint authority has been
                  challenging because the two agencies have different missions and approaches.
                  OTAQ officials said the Federal Aviation Administration focuses on aircraft
                  safety, and their emissions agenda is more consistent with that of the airline
                  industry than EPA’s emissions agenda.

                  In addition, the International Civil Aviation Organization is the international
                  governing body for the aviation industry, seeking to ensure safety, equality, and
                  consistency among the international aircraft community through the development
                  of standards and procedures for aircraft engines. A final rule for the control of
                  pollution from aircraft was issued last year to adopt the Organization’s current
                  standards, but an OTAQ official told us that these standards are essentially a
                  codification of the existing EPA aircraft standards, and are not technology-
                  forcing. Currently, about 90 percent of aircraft engines in use already meet these
                  standards. Further, the official said EPA has tried on numerous occasions to
                  adopt more stringent aircraft emissions regulations but has not been successful.

                  Small Gasoline Engine Challenges

                  Small gasoline engines such as lawn and garden equipment are the largest
                  contributor of nonroad gasoline NOx emissions (44 percent), and the second
                  largest contributor of PM2.5 emissions (31 percent) among nonroad gasoline
                  sources nationwide. Thus, small gasoline engines are another nonroad engine
                  emissions source in need of emissions reductions. One specific challenge,
                  described next, exists with respect to reducing emissions from small gasoline
                  engines less than 50 horsepower.

                  A rider enacted in the 2004 VA-HUD7 appropriations bill preempts any State
                  (with the exception of California8) from adopting or enforcing standards relating
                  to the control of emissions from new nonroad spark-ignition engines smaller than
                  50 horsepower. Section 209(e)(B) of the Clean Air Act Amendments of 1990
                  provided States flexibility in choosing between Federal emission standards or

7
  Appropriations Bill for the Department of Veterans Affairs and the Department of Housing and Urban
Development
8
  There appears to be a typographical error in the VA-HUD Appropriation language which states that “[t]he
prohibition in subsection (e) does not apply to or restrict in any way the authority granted to California under
Section 209(e) of the Clean Air Act (42 U.S.C. 7543(e)).” Subsection (e) does not expressly contain any
prohibition, but rather contains language regarding the effect of these provisions on the enforcement by States of
California standards enacted prior to September 1, 2003. We conclude that in referring to “the prohibition in
subsection (e),” the drafters intended to reference subsection (c), which includes the following prohibition: “[n]o
state or political subdivision thereof may adopt or attempt to enforce any standard or other requirement applicable to
spark ignition engines smaller than 50 horsepower.”


                                                         16 

          California’s more protective standards. Now, because of the 2004 VA-HUD
          rider, States are prohibited from adopting (under section 209(e) of the Clean Air
          Act Amendments) the stricter California standards for this subset of small
          nonroad vehicles or engines.

          EPA had previously issued two sets of regulations – Phase 1 and 2 Emissions
          Standards Engines at or Below 19 kW – to control emissions from new small
          spark-ignition (small gasoline) engines less than 25 horsepower in 1997 and 2000,
          and did not intend to issue additional regulations for these engines in the near
          future. Since States are preempted from adopting California’s regulations for
          small engines less than 50 horsepower, Congress directed EPA to issue revised
          small gasoline engine emissions regulations by December 2004. EPA did not
          meet the 2004 deadline, which an OTAQ official said was unrealistic. In June
          2005, the Senate approved a provision requiring EPA to conduct a safety study on
          the effects of installing new emission controls on lawnmowers (a small gasoline
          engine) and their potential to cause fires and burns, which could have impacted
          the development of the revised rule. Congress required EPA to complete the
          study by February 2, 2006, and prohibited the Agency from publishing proposed
          or final regulations until after the study was complete. EPA completed the study
          in March 2006, and concluded that adding emission control technologies would
          not increase the risk of fire and burns to consumers. Now EPA can begin the
          rulemaking process for the Phase 3 emission standards.

Nonroad Diesel Engines Rule Presents Technical Challenges
          The diversity of nonroad engines presents several technical challenges to the
          successful implementation of the most recent rule. The 2004 Nonroad Diesel
          Engines rule is based on a systems approach in which emissions reductions will
          be accomplished through a combination of engine modifications, reduced content
          of sulfur in diesel fuel, and exhaust aftertreatment devices. EPA and other key
          stakeholders described this systems-based approach as technology-forcing,
          requiring technological advancements or new applications, and combinations of
          existing technology to meet required emissions standards. To meet these
          challenges, EPA will need to address: (1) diversity of nonroad engine
          applications, (2) integration of aftertreatment technology, and (3) availability of
          low sulfur fuel. Details on each follow.

          Diversity of Nonroad Engine Applications

          The nonroad diesel engine sector covers a diverse range of equipment and engine
          applications, from tractors to generators. EPA believes the emissions reduction
          technology currently used for the onroad sector can be transferred to the nonroad
          sector, but transferring this technology to the diverse engine types and sizes in the
          nonroad sector, in some cases, may be challenging. While onroad engines operate
          under a narrow range of sizes and designs, each nonroad diesel engine application




                                           17 

         involves different mechanical and duty cycle demands, resulting in a variety of
         engine designs and configurations.

         Integration of Aftertreatment Technology

         Exhaust aftertreatment technology or retrofit devices are used to control engine
         emissions, such as PM and NOx, before they leave the tailpipe. Examples of these
         devices include oxidation catalysts, selective catalytic reduction devices,
         particulate filters, and NOx catalysts. The integration of aftertreatment devices in
         nonroad equipment presents a challenge due to the variation in operating
         temperatures and space constraints. For example, PM aftertreatment devices must
         be operated above a certain temperature, while NOx aftertreatment devices have
         both a low and high temperature requirement. Further, the technology for
         controlling PM emissions is more mature than that for controlling NOx.

         Nonroad equipment also has safety and visibility requirements that must be taken
         into account when designing aftertreatment devices. For example, nonroad
         equipment operators must have a clear view of the operating area for equipment
         attachments, such as shovels and buckets, without being blocked by the engine
         compartment. While some equipment using a particular engine may have
         sufficient space to accommodate aftertreatment devices, the same engine used on
         another piece of equipment may not have enough room.

         To help address these challenges, EPA incorporated flexibilities into the Tier 4
         nonroad diesel rule to allow manufacturers the lead time necessary to develop and
         apply aftertreatment device technology. In certain cases, this flexibility extends
         for some manufacturers until 2020.

         Availability of Low Sulfur Fuel

         The use of aftertreatment devices to control NOx and PM emissions will depend
         on the availability of ultra low sulfur diesel fuel. Currently, diesel fuel contains
         sulfur levels of about 3,400 ppm. EPA’s sulfur fuel standards in the 2004
         Nonroad Diesel Engines rule should enable the use of new technology to reduce
         PM and NOx emissions and, more importantly, address health and environmental
         risks associated with these pollutants. These standards require refineries to reduce
         the sulfur content of diesel fuel to 500 ppm by 2007 and to 15 ppm by 2010.
         Thus, the availability of 15 ppm ultra low sulfur diesel fuel is critical.

Conclusions

         EPA emissions control regulations exist for almost all nonroad engine categories,
         but challenges to reducing emissions from these engines remain. These
         challenges involve the development of regulations with other Federal Government
         entities and international organizations, as well as other issues generally outside
         of EPA’s control. These challenges may hinder EPA’s progress in achieving


                                          18 

         emissions reductions from nonroad engines and protecting public health.
         Technical challenges exist related to the diversity of nonroad engines and the
         wide range of applications of those engines, and will require creating a wide
         variety of engine designs and sizes to accommodate emissions controls. Further,
         operating constraints, varying temperature ranges, and equipment sizes create a
         challenge regarding the placement of aftertreatment devices.

Agency Response and OIG Evaluation

         See Agency Response and OIG Evaluation section at the end of Chapter 2, along
         with Appendices C and D.




                                        19 

                  Status of Recommendations and
                    Potential Monetary Benefits

                                                                                       POTENTIAL MONETARY
                            RECOMMENDATIONS                                             BENEFITS (in $000s)

                                                                           Planned
           Page                                                           Completion    Claimed   Agreed To
Rec. No.    No.           Subject             Status1   Action Official      Date       Amount     Amount

                     No recommendations




                                                20 

                                                                                        Appendix A

                 Details on Scope and Methodology

We conducted our work from April 2005 through February 2006 in accordance with Government
Auditing Standards issued by the Comptroller General of the United States. This report presents
information based on results from preliminary research; field work was not conducted because a
follow-on evaluation is planned in the near future. This report focused on EPA’s efforts to
reduce emissions from nonroad sources, and not those of States or environmental and industry
groups. Nonetheless, we interviewed officials from associations representing air pollution
control agencies across the United States, as well as officials from selected State and local
agencies, and environmental and industry groups, to ascertain their views on EPA’s nonroad
emissions reduction efforts. We selected these stakeholders based on their involvement in EPA’s
nonroad rulemaking efforts and involvement in the nonroad sector.

To review EPA’s approach to reducing nonroad mobile source emissions, the progress made, and
what opportunities and challenges exist in implementing actions that could lead to greater
emissions reductions, we reviewed several documents. These documents included applicable
Agency rulemakings, policies, guidance, and other documentation regarding planning,
implementation, and oversight of programs to reduce emissions from nonroad mobile sources.
We also examined external stakeholder reports, including the following:

Policies, Guidance, and Reports Reviewed
   • Clean Air Act Amendments of 1977 and 1990, Sections 110 , 209, 213, and 231
   • 1991 Nonroad Mobile Sources Study
   • 2004 Control of Emissions of Air Pollution From Nonroad Diesel Engines and Fuel Rule
   • Agency Strategic Plans
   • Regulatory announcements for various nonroad diesel engine categories
   • Various State and local environmental group reports pertaining to nonroad diesel engine emissions
   • NONROAD emissions inventory model
   • EPA National Emissions Inventory Air Pollutant Emissions Trends Data, 2005
   •	 Clean Air Act Advisory Committee, Mobile Sources Technical Review Subcommittee
      meeting notes and presentations
   •	 Clean Air Act Advisory Committee, Mobile Sources Technical Review Subcommittee –
      Clean Diesel and Retrofit Working Group
   • National Clean Diesel Campaign
   • EPA Voluntary Diesel Retrofit Program
   • 2005 Diesels Emissions Reduction Act
   • Congestion, Mitigation, and Air Quality Program
   • State and local incentive and grant emission reduction programs
   • EPA marine and locomotive regulations
   • International Maritime Organization regulations
   • EPA aircraft regulations
   • Outdoor Power Equipment Institute

We also interviewed key air program officials and representatives at OTAQ, which is part of 

EPA’s Office of Air and Radiation. We also interviewed the following external stakeholders 



                                                 21
from State and local environmental organizations, environmental groups and associations, and
industry:

Key Stakeholders Contacted
 EPA           •    Clean Air Act Advisory Committee – Clean Diesel and Retrofit Working Group
               •	   Clean Air Act Advisory Committee – Mobile Sources Technical Review
                    Subcommittee, Ports Sector Working Group staff
               •	   OTAQ Officials

                       9 Marine Diesel Engine staff 

                       9 NONROAD Model Staff 

                       9 Voluntary Diesel Retrofit Program

 External      •    Association of Equipment Manufacturers
               •	   Association of Local Air Pollution Control Officials
               •	   California Air Resources Board
               •	   Diesel Technology Forum
               •	   Engine Manufacturers Association
               •	   Environmental Defense
               •	   Manufacturers of Emission Controls Association
               •	   Natural Resources Defense Council
               •	   Northeast States for Coordinated Air Use Management
               •	   Puget Sound Clean Air Agency
               •	   Resources for the Future
               •	   State and Territorial Air Pollution Program Administrators /
                    Association of Local Air Pollution Control Officials



To determine EPA’s approach to reduce nonroad mobile source emissions and progress made,
we identified EPA’s goals and strategies for controlling nonroad emissions from 1994 to the
present. We identified EPA’s rulemaking status for all nonroad engine categories, including
effective dates and the expected emission reductions. We reviewed EPA’s regulatory authority
to address emissions from new and existing engines. To identify EPA’s efforts to address
emissions from new and existing engines, we reviewed EPA regulations and programs to address
emissions from nonroad engines, interviewed Agency staff and interested stakeholders, and
analyzed supporting documentation. We reviewed PM and NOx emission trends.

To answer the question of what additional opportunities exist for nonroad ozone precursor and
PM emission reductions, we interviewed OTAQ staff, State officials, local environmental groups
and associations, and industry stakeholders. This included discussing whether additional
regulations were needed to address nonroad emissions. We reviewed EPA and other reports on
the health and air quality impacts of nonroad sectors identified in need of additional emission
reductions. We reviewed EPA and external documentation to identify nonroad categories with
projected emissions growth. We identified external stakeholder reports on State and local
emission reduction programs. We reviewed several Bills/Laws/Acts, such as:




                                                   22 

   •	 The Federal Highway Administration’s Congestion, Mitigation, and Air Quality program,
      signed into law on August 10, 2005, as part of the Safe, Accountable, Flexible, Efficient
      Transportation Equity Act.
   •	 Diesel Emissions Reduction Act of 2005, signed into law August 2, 2005, as part of the
      Energy Policy Act of 2005.

To answer the question of what challenges EPA faces in effectively addressing nonroad
emissions, we interviewed key EPA officials and external stakeholders to ascertain their
perspective on the regulations for foreign-flagged (Category 3) marine vessels as well as aircraft,
and the roles of the International Maritime Organization and International Civil Aviation
Organization in addressing harmful emissions. We reviewed documentation on foreign-flagged
marine vessels and aircraft emissions. We interviewed EPA and external stakeholders to
understand EPA’s progress in revising rules for small gasoline engines. We reviewed
Congressional reports and documentation regarding small gasoline engines.

This report provides information on the progress of EPA’s efforts to address nonroad emissions
and makes no recommendations. We plan to perform additional reviews of mobile source issues
in the future, including an in-depth review related to existing engines.

Management Controls

This report provides information on the status of EPA’s efforts to address nonroad emissions,
and makes no recommendations for Agency action due to the limited scope discussed above. As
such, a review of EPA management control systems was not conducted. To fully assess EPA’s
nonroad emission reduction strategies related to existing nonroad engines, the Office of Inspector
General plans further work regarding EPA’s programs to reduce emissions from nonroad diesel
sources.

Data Quality

We reviewed EPA’s 2005 National Emissions Inventory Air Pollutants Emissions Trends Data
for PM2.5, NOx, and VOCs, but did not conduct a data reliability assessment of the inventory as
this was not the focus of our objectives.

Prior Reports

The EPA Office of Inspector General has not issued any reports specific to nonroad emissions
reductions efforts. During the course of our evaluation, we reviewed the following Government
Accountability Office reports related to airport emissions:

   •	 Aviation and the Environment: Airport Operations and Future Growth Present 

      Environmental Challenges (GAO/RCED-00-153), August 2000 

   •	 Aviation and the Environment: Strategic Framework Needed to Address Challenges
      Posed by Aircraft Emissions (GAO-03-252), February 2003




                                                23 

                                                                                               Appendix B

          EPA’s Regulatory Schedule for Nonroad Engines

                                                                           Implementation
                                                         Phases/Tiers of   Date of          Actual/ Planned
Equipment        Rule Making and Date                    Emissions         Emissions        Emissions
Category         Final Rule Established                  Standards         Standards        Reductions
Land-Based
Diesel Engines
                 Control of Air Pollution;               Tier 1            1996-2000        Tier 1: 30% reduction
                 Amendments to Emission                                                     in NOX and 37%
                 Requirements Applicable to New                                             reduction by 2025
                 Nonroad Compression-Ignition
                 Engines at or Above 37 kW:
                 Provisions for Replacement
                 Compression-Ignition Engines and
                 the Use of On-Highway
                 Compression-Ignition Engines in
                 Nonroad Vehicles (published
                 November 12, 1996)

                 Control of Emissions of Air Pollution   Tier 2            2001-2006        Tiers 2 and 3: By 2020
                 from Nonroad Diesel Engines             Tier 3            2006-2008        exceed 50% NOX and
                 (published October 23, 1998)                                               40% PM reduction

                 Control of Emissions of Air Pollution   Tier 4            2008-2015        By 2030 , 95%
                 From Nonroad Diesel Engines                                                reduction in PM and
                 (published June 29, 2004)                                                  90% reduction in NOX
                                                                                            And 99 % reduction
                                                                                            sulfur fuel levels
Land-Based
Spark-Ignition
Engines
Small Spark-
Ignition
                 Control of Pollution; Emission          Phase 1: <25 hp   1997             Phase 1: 32%
                 Standards for New Nonroad Spark-                                           reduction in HC by
                 Ignition Engines At or Below 19kW                                          2020
                 (published July 3, 1995)

                 Phase 2 Emission Standards for          Phase 2: <25 hp   2001-2007        Phase 2: 60%
                 new Nonroad Spark-Ignition              non-handheld                       reduction in HC and
                 Nonhandheld Engines At or Below         engines                            NOX from Phase 1
                 19kW (published March 30, 1999)                                            level

                 Phase 2 Emission Standards for          Phase 2: <25 hp   2002-2007        Phase 2: 70%
                 New Nonroad Spark-Ignition              handheld                           reduction in HC and
                 Handheld engines At or Below            engines                            NOX from Phase 1
                 19kW and Minor Amendments to                                               level
                 Emission Requirements Applicable
                 to Small Spark-Ignition Engines and
                 Marine Spark-Ignition Engines
                 (published April 25, 2000)




                                                         24 

                                                                                    Implementation
                                                               Phases/Tiers of      Date of            Actual/ Planned
Equipment              Rule Making and Date                    Emissions            Emissions          Emissions
Category               Final Rule Established                  Standards            Standards          Reductions
Large Spark-
Ignition
                       Control of Emissions from Nonroad       > 25 hp              2004-2007          By 2030, 75%
                       Large Spark-Ignition Engines, and                                               reduction in HC, 82%
                       Recreational Engines (Marine and                                                reduction in NOX.
                       Land Based) (published November                                                 61% reduction CO,
                       8, 2002)                                                                        60% reduction in PM

Recreational
Vehicles
           ATVs &      Control of Emissions from Nonroad       The regulation       2006-2007          67% reduction in HC
       Motorcycles     Large Spark-Ignition Engines, and       does not include     (ATVs &            28% reduction in CO
                       Recreational Engines (Marine and        tiers of standards   Motorcycles)
     Snowmobiles       Land Based) (published November
                       8, 2002)                                                     2006-2012
                                                                                    (Snow Mobiles)
Marine Engines
and Vessels
Marine Spark-
Ignition
                       Control of Air pollution for New        Tier 1: Outboard     1998-2006          By 2025 ,75% lower
                       Gasoline Spark-Ignition Engines:        & personal water                        HC emissions on
                       Exemptions for New Nonroad              craft                                   average
                       Compression Ignition Engines at or
                       Above 37 Kilowatts and New
                       Nonroad Spark-Ignition Engines at
                       or Below 19 Kilowatts (published
                       October 4,1996)

Marine Diesel
Engines
                                                                                                   a
     Small Engines     Control of Emissions of Air Pollution   Tier 1               1999 or 2000       Tier 1 and Tier 2:
                       from Nonroad Diesel Engines                                                     exceed 50% NOX and
                       (published October 23, 1998)                                                    40% PM reduction
                                                                                                   a
                                                               Tier 2               2004 or 2005
                                                                                                       These are the same
                                                                                                       as the Tier 2 and 3
                                                                                                       Land Based Diesel
                                                                                                       Engine standards
Commercial diesel      Control of Emission from New            Tier 1               2004               Not available
  marine engines,      Marine Compression-Ignition
Categories 1 and 2     Engines at or Above 30 Liters per
                       Cylinder (published February 28,
                       2003)b                                  Tier 2               2004-2007a         24% reduction in NOX,
                                                                                                       12% reduction in PM
                       Control of Emission of Air Pollution                                            in 2030
                       from New Marine Compression-
                       Ignition Engines at or Above 37 kW
                       (published December 29, 1999)

       Commercial      Control of Emission from New            Tier 1               2004               Not available
      marine diesel    Marine Compression – Ignition
engines, Category      Engines at or Above 30 Liters per
 3 vessels flagged     Cylinder (published February 28,
or registered in the   2003)
               U.S.




                                                               25 

                                                                                Implementation
                                                           Phases/Tiers of      Date of            Actual/ Planned
Equipment             Rule Making and Date                 Emissions            Emissions          Emissions
Category              Final Rule Established               Standards            Standards          Reductions
Category 3 vessels    MARPOL-Annex VI                      The regulation       2000               20% NOX reduction
  – foreign flagged   (international marine standards)     does not include
            vessels                                        tiers of standards

Recreational
                      Control of Emissions from New        Tier 1               2004               Not available
                      Marine Compression-Ignition
                      Engines at or Above 30 Liters per
                      Cylinder (published February 28,
                      2003)

                      Control of Emission from Nonroad     Tier 2               2006-2009          Not available
                      Large Spark-Ignition Engines, and
                      Recreational Engines (Marine and
                      land-Based) (published November
                      8, 2002)

Locomotives
                      Emission Standards for               Tier 0: engines      2001-2005          By 2040, 59%
                      Locomotives and Locomotive           originally                              reduction in NOX and
                      Engines (published April 19,1998)    manufactured                            (41% reduction by
                                                           1973-2001                               2010)
                                                                                                   46% reduction in PM,
                                                           Tier 1: engines                         43% reduction in HC
                                                           originally
                                                           manufactured
                                                           and thereafter,
                                                           2002-2004

                                                           Tier 2: engines
                                                           originally
                                                           manufactured
                                                           2005 or later

Aircraft
                        Control of Air Pollution from Aircraft The regulation     December 19,       Approximately 16%
                        and Aircraft Engines; Emission         does not include   2005               reduction in NOX
                        Standards and Test Procedures,         tiers of standards                    emissions
                        (published November 17, 2005)
CO: Carbon Monoxide
HC: Hydrocarbons
a
  Effective dates depend on Engine Size.
b
  This rule also applies the Tier 1 standards to Category 1 and Category 2 engines with a displacement of
2.5 liters/cylinder and greater. The Tier 1 standards are equivalent to the MARPOL-Annex VI NOx and
began in 2004. Beginning in 2007, Category 1 and Category 2 engines must comply with the Tier 2
standards.

Source: EPA, Program Update: Reducing Air Pollution from Nonroad Engines, April 2003




                                                            26 

                                                                                     Appendix C

                   Agency Response to Draft Report
                                        September 8, 2006
MEMORANDUM

SUBJECT:	 Comments on OIG’s “Progress Report on EPA’s Nonroad Mobile Source
          Emissions Reduction Strategies”
FROM:	         William L. Wehrum
               Acting Assistant Administrator
TO:	           J. Rick Beusse, Director
               Office of Inspector General

       I am writing to provide you with the Office of Air and Radiation’s comments on the draft
Inspector General Report, “Progress Report on EPA’s Nonroad Mobile Source Emissions
Reduction Strategies,” (No. 2005-001206, May 16, 2006). Thank you for the extended
opportunity to review and comment on this report.
        The report has identified a number of important challenges for EPA as we try to reduce
air pollution from the few remaining categories of nonroad equipment where we have yet to
effect meaningful control. I am very concerned, however, as I discussed with Acting Inspector
General Bill Roderick on July 31, that the report does not reflect the important progress that we
have achieved thus far.
         The first task OIG set out for this report was to determine “the effectiveness of EPA’s
efforts to reduce nonroad mobile source emissions, particularly ozone precursor emissions.” The
draft report, however, provides little evaluation or analysis of the enormous progress EPA has
made in reducing ozone precursors (and other pollutants) from nonroad sources. Since the Clean
Air Act Amendments of 1990, EPA has implemented standards for nearly every nonroad source
category. Millions of engines, vehicles and equipment have been introduced into commerce in
the past decade that are cleaner because of these standards, resulting in substantial reductions in
air pollution. This has helped states meet the National Ambient Air Quality Standards for ozone,
particulate matter and carbon monoxide, in addition to providing meaningful public health and
welfare benefits. The report does not quantify these reductions, but instead indicates that EPA’s
efforts to date will not have any impact for 20 to 30 years. This is an important issue which
should be addressed.
       Please see the attached mark-up of the draft report for additional detailed comments.
        I trust these comments will be helpful in completing your work on this report. Please feel
free to contact me or Bill Charmley (734-214-4466) if you have any questions about our
comments or if we can provide additional information.

Attachments


                                                27 

                                                                                   Appendix D

      Agency Memo on Projected Near-Term Nonroad 

                Emissions Reductions


                                        August 25, 2006

MEMORANDUM

SUBJECT:      Impact of EPA Nonroad Rules on Emissions for 2006 and 2010.

FROM:         Craig Harvey and Penny Carey
              Assessment and Standards division

TO:           John Koupal, Director, Air Quality and Modeling Center
              Assessment and Standards Division


This memorandum documents the emission reductions for calendar years 2006 and 2010
projected to occur from all existing EPA nonroad emission standards, except aircraft standards.

The NONROAD emission inventory model was used for all nonroad source categories except
aircraft, commercial marine, and locomotive engines. For the two years selected, 2006 and
2010, NONROAD was used to estimate the national emissions inventory for total hydrocarbons
(THC), oxides of nitrogen (NOx), particulate matter less than 10 micrograms (PM10) and carbon
monoxide (CO). For each year, annual emission inventories were estimated for two scenarios.
First, inventories were estimated with no EPA emission standards in place. Second, emission
inventories were estimated with the current status quo, that is, with all EPA emission standards
which have been finalized as of August, 2006 assumed.

NONROAD does not currently have the capability to estimate emissions from aircraft,
commercial marine and locomotive engines. Emission estimates for these categories have
historically been done using spread-sheet models. For locomotive engines, the uncontrolled fuel-
specific emission factors contained in the 1997 locomotive final rule were used together with the
2006 and 2010 locomotive fuel use estimates in the 2004 Clean Air Nonroad Diesel Rule to
calculate the locomotive inventories with no EPA emission standards in place. The control
inventories in the 2004 Clean Air Nonroad Diesel Rule incorporate all EPA locomotive
standards which have been finalized to date, so these were used directly for the second scenario.

For commercial marine engines, the inventories with no EPA emission standards in place were
taken from the 1999 final rule affecting Category 1 and 2 engines, and the 2003 final rule
affecting Category 3 engines. The control inventories in the 2004 Clean Air Nonroad Diesel
Rule incorporate all EPA commercial marine standards which have been finalized to date, so
these were used directly for the second scenario.



                                               28 

The inventories for the source categories were then combined for each scenario. The outputs of
these two scenarios were then compared and are summarized in Table 1.

Table 1: Emission reductions from all EPA nonroad standards, except aircraft

                             2006                                   2010
Pollutant     Tons Reduced     Percent Reduced        Tons Reduced Percent Reduced
   THC              1,590,089        33%                  2,449,807      47%
   NOx                913,055        21%                  1,558,322      33%
  PM10                 73,143        21%                    117,147      33%
    CO              3,145,113        10%                  4,718,399      14%

The results of this analysis show, for example, that in 2006, EPA’s existing emission standards
for nonroad sources are projected to have resulted in a 33% reduction in total hydrocarbons, a
reduction of 1.5 million tons, excluding the aircraft category.

In the future, the aircraft, locomotive, and commercial marine source categories will be included
in EPA’s new emissions model, MOVES. If the aircraft category was included in Table 1, it
would show slightly greater emission reductions, in particular for NOx.




                                               29 

                                                                            Appendix E

                                    Distribution
Office of the Administrator
Acting Assistant Administrator for Air and Radiation
Deputy Assistant Administrator for Air and Radiation
General Counsel
Agency Followup Official (the CFO)
Agency Followup Coordinator
Audit Followup Coordinator, Office of Air and Radiation
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Director, Office of Transportation and Air Quality
Deputy Director, Office of Transportation and Air Quality
Audit Liaison, Office of Transportation and Air Quality
Acting Inspector General




                                             30 

